                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-CG-13-35                                     Office of Audits                                         July 2013




      Audit of Bureau of Population, Refugees
        and Migration Oversight of Selected
       Cooperative Agreements in Support of
          Colombian Refugees in Ecuador




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREfACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the ofiice, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                  UNCLASSIFIED



Acronyms
A/OPE      Bureau of Administration, Office of the Procurement Executive
CRS        Catholic Relief Services
IDP        internally displaced person
GO         grants officer
GOR        grants officer representative
GPD        Grants Policy Directive
HIAS       Hebrew Immigrant Aid Society
IPE        interim program evaluation
NGO        non-governmental organization
OIG        Office of Inspector General
RefCoord   refugee coordinator
RET        The Foundation for the Refugee Education Trust
PRM        Bureau of Population, Refugees and Migration
USAID      U.S. Agency for International Development




                                  UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Objective……. .................................................................................................................................5

Audit Results ..................................................................................................................................6
       Finding A. Performance Monitoring Exceeded Department of State Requirements..........6
       Finding B. Financial Monitoring Needed Strengthening ..................................................12

List of Recommendations ..............................................................................................................16

Appendices
      A. Scope and Methodology................................................................................................17
      B. Bureau of Population, Refugees and Migration Response ..........................................21

Major Contributors to This Report ................................................................................................24




                                                          UNCLASSIFIED
                                               UNCLASSIFIED


                                           Executive Summary
       Within the Department of State (Department), the Bureau of Population, Refugees and
Migration (PRM) is charged with providing protection and easing the suffering of persecuted and
uprooted people around the world by providing life-sustaining assistance. In the Western
Hemisphere, the majority of assistance provided by PRM is in support of internally displaced
Colombians and those seeking asylum as refugees1 in neighboring countries such as Ecuador.
PRM provides assistance through voluntary contributions to international organizations,
interagency agreements, and grants2 and cooperative agreements to non-governmental
organizations (NGO). From FY 2010 thorough FY 2012, PRM obligated $162 million for
Migration and Refugee Assistance in the Western Hemisphere,3 of which $45 million was for
cooperative agreements in support of Colombian refugees.

       The Office of Inspector General (OIG) performed this audit to assess the efficacy of
PRM’s monitoring of cooperative agreements dedicated to address the humanitarian assistance
needs of refugees. The primary objective of this audit was to determine whether PRM’s
oversight of cooperative agreements in support of Colombian refugees located in Ecuador was in
accordance with applicable guidelines and whether stated program performance indicators were
achieved and accurately reported.

        OIG reviewed a sample of 10 cooperative agreements, totaling $22 million, that were
awarded to three NGO recipients4 from FY 2010 through FY 2012 to support Colombian
refugees located in Ecuador. OIG found that PRM’s performance monitoring of these
agreements was in accordance with applicable guidelines and that stated performance indicators
were achieved and accurately reported. OIG also noted two performance oversight practices that
exceeded the Department’s requirements for monitoring cooperative agreements. These
practices were (1) completing an interim program evaluation (IPE) for every cooperative
agreement and (2) dedicating two full-time policy staff positions to provide monitoring and
evaluation expertise to all PRM program officers.

         With respect to financial monitoring, OIG found that PRM needed to strengthen
monitoring procedures to validate that funding was properly spent by NGO recipients.
Specifically, OIG found that grants officers (GO) and grants officer representatives (GOR) did
not perform financial reviews of recipient books and records when they conducted monitoring
site visits for the 10 cooperative agreements in OIG’s sample. Without financial reviews of
refugee assistance funds, PRM was not in compliance with Grants Policy Directive (GPD) 42,

1
  The term “refugee” as used in this report also encompasses “asylum seekers,” who are individuals who have
sought international protection but whose claims for refugee status have not yet been determined.
2
  OIG did not review contributions made to public international organizations because the use of funds generally is
not subject to audit or to reporting requirements by the U.S. Government. OIG also did not review interagency
agreements, as PRM executed only five from FY 2010 through FY 2012. Finally, OIG did not review grants, as
PRM executed only nine grants from FY 2010 through FY 2012, none of which were in the Western Hemisphere.
3
  Aside from support for Colombian refugees, which was approximately 72 percent of the total amount, funding for
the Western Hemisphere included assistance for Haitian refugees in the Caribbean and support for the Migrant
Operations Center at Guantanamo Bay Naval Base, Cuba.
4
  The three NGO recipients reviewed were Catholic Relief Services, The Foundation for the Refugee Education
Trust, and the Hebrew Immigrant Aid Society.

                                                    1
                                               UNCLASSIFIED
                                                 UNCLASSIFIED

“Monitoring Assistance Awards,” dated September 2, 2010, and did not have reasonable
assurance that program expenditures were in accordance with the terms of the cooperative
agreement.

       OIG made two recommendations to PRM: PRM should address the gaps in fiscal
monitoring by requiring GORs to perform a financial review of recipients’ books and records
during annual monitoring site visits, as prescribed by GPD 42, and PRM should ensure that two
award recipients reimburse the Department for unallowable costs identified during the audit.

       OIG provided PRM a draft of this report on June 11, 2013. In PRM’s June 26, 2013,
response (see Appendix B) to the draft report, PRM concurred with Recommendations 1 and 2.
Based on PRM’s responses, OIG considers both recommendations resolved. However, each
recommendation will remain open until documentation is provided showing that the
recommendations have been fully implemented. (A summary of management’s responses to the
recommendations and OIG’s replies are presented after each recommendation.)

                                                   Background

Migration and Refugee Assistance

        The international humanitarian programs of the U.S. Government provide critical
protection and assistance to the world’s most vulnerable people. Assistance programs for
populations of concern5 are intended to save lives, uphold human dignity, help stabilize volatile
situations, and prevent or mitigate conditions that breed extremism and violence. These efforts
were authorized by the Migration and Refugee Assistance Act of 1962,6 which provides for
unexpected and urgent needs of refugees and other persons at risk around the globe.

        Within the Department, PRM spearheads these efforts with the mission to provide
protection, ease suffering, and resolve the plight of persecuted and uprooted people around the
world on behalf of the American people. Specifically, PRM provides life-sustaining assistance
by working through multilateral systems7 to build global partnerships, promote best practices in
humanitarian response, and ensure that humanitarian principles are thoroughly integrated into
U.S. foreign and national security policy. Funding is prioritized among worldwide needs and
focused on vulnerable populations such as Afghans, Iraqis, Somalis, Colombians, Burmese,
Palestinians, and Congolese.

       PRM utilizes voluntary contributions to international organizations, interagency
agreements, and grants and cooperative agreements to NGOs to fund humanitarian assistance
programs. Funding for humanitarian assistance programs to NGOs was mainly provided through
cooperative agreements, as PRM administered 677 cooperative agreements and only nine grants
from FY 2010 through FY 2012. Cooperative agreements are managed using grants-based

5
  “Populations of concern” include the following groups of individuals: refugees, internally displaced persons,
stateless persons, vulnerable migrants, victims of conflict, and asylum seekers.
6
  Pub. L. No . 87-510 (codified at 22 U.S.C. § 2601).
7
  “Multilateral” is a term in international relations that refers to multiple countries working in concert on a given
issue.

                                                      2
                                                 UNCLASSIFIED
                                               UNCLASSIFIED

policies but require greater U.S. Government participation as “substantial involvement” than do
grant awards.

Colombian Refugee Assistance in Ecuador

        The largest population of internally displaced persons (IDP) in the world8 has resulted
from individuals being displaced during decades of fighting between the Colombian Government
and illegal armed groups. Ongoing violence has displaced an estimated four million Colombians
and has resulted in approximately 363,000 Colombian refugees being located in Ecuador,
Venezuela, Panama, and Costa Rica. Leading causes for displacement of IDPs include violence
and threats against civilian populations and competition among illegally armed groups
attempting to establish control over territory.

        Of the four countries accepting Colombian refugees, Ecuador hosts a refugee population
estimated at 123,436 displaced Colombians9 as of January 2012. Because Colombian refugees
do not live in camps and usually cross the border in “drop by drop” displacements rather than in
mass group movements, they have been called the world’s “invisible” refugees.10 The spillover
of the conflict from Colombia into Ecuador has occurred mainly in the northern border provinces
of Esmeraldas, Carchi, and Sucumbíos (Lago Agrio). Once the refugees arrive in the border
areas, many of them disperse to larger cities, where they mix with local populations and as such
are labeled “urban refugees.” Urban refugees face increased dangers, including a lack of legal
documentation and increased vulnerability to exploitation, arrest, and detention. In addition,
those refugees suffer from the perception that they are economic migrants who are abusing the
asylum system, and Ecuadorians often believe that the presence of the refugees leads to an
increase in criminal activity and insecurity.

        As shown in Table 1, from FY 2010 through FY 2012, PRM obligated approximately
$45 million to IDPs and refugees in Colombia and neighboring countries via cooperative
agreements with NGOs. The programs administered by the NGOs provided direct emergency
humanitarian assistance, including food, non-food, shelter, health, and psychosocial support to
vulnerable populations. These PRM-funded programs also supported capacity-building activities
with local governments, refugee associations, and civil society to improve the quality of
assistance and services for IDPs and refugees. To determine whether PRM was effectively
overseeing the programs executed in support of Colombian refugees in Ecuador, OIG selected a
sample of 10 cooperative agreements awarded from FY 2010 through FY 2012, totaling
$21.6 million (48 percent), which were awarded to three NGO recipients—Catholic Relief


8
  Per the United Nations High Commissioner for Refugees 2011 Statistical Yearbook, which is a comprehensive
annual statistical publication that assesses levels and trends in populations of concern, Colombia had the most IDPs
of any country in the world, 3,888,309, followed by Sudan, which had 2,422,520 in 2011.
9
  Of the 123,436 displaced Colombians in Ecuador, approximately 55,791 had been recognized as refugees by the
Ecuadorian Government as of June 2012. Refugee status entitles the individual to receive a legal residence permit
and humanitarian assistance provided by Ecuador. The Ecuadorian Government’s efforts to assist the refugees have
come under enormous pressure from the large numbers of new arrivals, leading to the introduction of restrictive
measures affecting the asylum process.
10
   United Nations High Commissioner for Refugees Research Paper No. 217, “In the Shoes of Refugees: Providing
Protection and Solutions for Displaced Colombians in Ecuador,” dated August 2011.

                                                    3
                                               UNCLASSIFIED
                                              UNCLASSIFIED

Services (CRS), The Foundation for the Refugee Education Trust (RET), and the Hebrew
Immigrant Aid Society (HIAS).

Table 1. Summary of Migration and Refugee Assistance in the Western Hemispherea
                                         FY 2010            FY 2011           FY 2012             Total
International Organizations              $31,770,331       $36,750,000       $35,278,603      $103,798,934
Cooperative Agreements                   $13,399,481       $14,947,250       $16,621,781       $ 44,968,512
Interagency Agreements                    $2,207,405         $1,120,740       $2,659,380         $5,987,525
                            b
Julia Taft Refugee Funds                     $75,000           $134,300           $50,000          $259,300
        c
Other                                     $2,325,695         $1,942,266       $2,381,305         $6,649,266


Total                                   $49,777,912       $54,894,556 $56,991,069 $161,663,537
Source: OIG generated based on analysis of PRM documents, including PRM’s Summaries of Major Activities for
FYs 2010-2012.
a
  PRM allocates overseas humanitarian assistance by six global regions—Africa, East Asia, Europe, Near East,
South Asia, and Western Hemisphere—and two strategic priorities—Protection Priorities and Migration. The figures
in Table 1 represent obligations from the Western Hemisphere line of the Migration and Refugee Assistance
account; additional funding was obligated for the Western Hemisphere region from the Protection Priorities line.
b
  The Julia Taft Refugee Fund (“Taft Grants”) provides ambassadors with the means to respond to critical gaps that
have not been addressed in larger multilateral refugee programs. The funds are used for small post-administered
projects, which are not overseen by PRM.
c
  Per PRM officials, “Other” includes prior year recoveries and amounts carried over within the Western
Hemisphere line from prior years.

Department of State Monitoring Guidelines and Requirements

         Within the Department, grants and cooperative agreements are governed by GPDs that
are issued by the Bureau of Administration, Office of the Procurement Executive (A/OPE).
Three GPDs specifically address performance and financial monitoring requirements. GPD 16,
“Designation of Grants Officer Representatives,” dated January 2, 2013, details Department
policies associated with the designation of a GOR, including the GOR’s role in monitoring
through regular contact with the award recipient, site visits, and reviews of Program Progress and
Financial Status Reports. GPD 28, “Roles and Responsibilities for the Award and
Administration of Federal Assistance,” dated September 21, 2010, establishes the roles and
responsibilities of the offices and personnel involved in the assistance award, including the GO’s
designation of responsibilities and the GOR’s responsibilities for monitoring. GPD 42,
“Monitoring Assistance Awards,” dated September 2, 2010, requires awards to be “appropriately
monitored to ensure that programmatic and financial management performance has been adhered
to for the intended purpose of the award and that the intended goals have been accomplished.”
GPD 42 also provides guidance for monitoring, such as how the GO or the GOR should conduct
site visits.

       A/OPE also issued the Federal Assistance Policy Handbook, dated March 2011, which
contains internal guidance, policies, standards, and best practices for the award and management
of Department grants and cooperative agreements. The Handbook provides suggestions on how

                                                   4
                                              UNCLASSIFIED
                                       UNCLASSIFIED

to carry out the guidance provided in the GPDs, such as specific steps to be taken for the review
of Financial Status Reports, which are required to be submitted by award recipients.

PRM Oversight of Cooperative Agreements

       PRM is responsible for the oversight of all cooperative agreements funded through the
Migration and Refugee Assistance and Emergency Refugee and Migration appropriations, and
the PRM Office of the Comptroller is responsible for the administration of all refugee-related
cooperative agreements. According to PRM officials, oversight of NGOs is a shared
responsibility among the Grants Management Specialists who serve as GOs, program officers
who serve as GORs, and regional refugee coordinators (RefCoords).

        According to PRM officials, the GOs are generally responsible for the financial
monitoring of the cooperative agreements. The GORs reside within three geographically based
divisions of PRM and are generally responsible for performance monitoring of the cooperative
agreements. RefCoords are Foreign Service Officers responsible for a range of issues that
include conducting field monitoring visits to NGOs and advocating for humanitarian diplomacy.
As of January 2013, 42 PRM staff members were assigned to Refugee Coordination (including
RefCoords, Deputy RefCoords, Refugee Assistants, and Refugee Specialists) and were stationed
at 19 embassies and/or consulates around the world.

                                           Objective
       The primary objective of this audit was to determine whether the Bureau of Population,
Refugees and Migration’s oversight of cooperative agreements in support of Colombian refugees
located in Ecuador was in accordance with applicable guidelines and whether stated program
performance indicators were achieved and accurately reported. (The scope and methodology of
the audit are detailed in Appendix A.)




                                            5
                                       UNCLASSIFIED
                                              UNCLASSIFIED


                                               Audit Results

Finding A. Performance Monitoring Exceeded Department of State
Requirements
       OIG found that PRM’s performance monitoring of the 10 selected cooperative
agreements associated with Colombian refugees located in Ecuador was in accordance with
applicable monitoring guidelines and requirements. Further, OIG observed two practices within
PRM that exceeded the Department’s requirements for monitoring cooperative agreements:

            the completion of an IPE for every cooperative agreement
            two full-time policy staff positions dedicated to monitoring and evaluation

       As a result of these exceptional performance monitoring practices, PRM was able to
demonstrate that performance indicators were achieved and were accurately reported for
cooperative agreements in support of Colombian refugees located in Ecuador.

Achievement of Performance Indicators

        Performance indicators are strategic milestones of program performance used by PRM to
monitor and evaluate each cooperative agreement and measure the progress and outcomes of
each award. While the types and numbers of performance indicators vary by award, each
indicator must be based on data gathered in baseline surveys, include a specific target population,
and include measurable outcomes.

        OIG conducted site visits to three award recipients in both Quito and Lago Agrio. OIG
then reviewed a sample of performance indicators for each of the 10 selected cooperative
agreements to determine whether those performance indicators were achieved and were
accurately reported. OIG selected one indicator from each cooperative agreement and found that
for completed awards, recipients either met or exceeded the indicator, and for ongoing awards,
recipients were on track to meet or exceed the indicator. As shown in Table 2, OIG reviewed
indicators for seven completed awards and examined supporting documentation, such as sign-in
sheets, case files, and distribution sheets, to verify that the indicators had been achieved. OIG
also traced the indicator to the Final Performance Report11 for each cooperative agreement to
determine whether the results were accurately reported to the Department. OIG concluded that
performance indicators were achieved and were accurately reported for the seven completed
cooperative agreements in its sample. OIG also reviewed one performance indicator for each of
the three ongoing cooperative agreements in its sample and determined that the stated indicators
were on track to be met; however, those performance results were not included in this report
because final progress reports had not been completed at the conclusion of our audit fieldwork.



11
  Final performance progress reports are due from the recipient within 90 calendar days following the end of the
award period of performance or completion of the award activity, whichever comes first. The final performance
progress report must describe how the program goals were met, what problems were encountered, and how the
problems were resolved.

                                                   6
                                              UNCLASSIFIED
                                               UNCLASSIFIED


Table 2. Assessment of Overseas Humanitarian Assistance Program Results for Selected
Cooperative Agreements in Ecuador
Award Number/
     NGO                Indicator                  Results               Verification
SPRMCO10CA170           70 percent of those              94 percent of a sample of 118           OIG reviewed a
                        individuals receiving            individuals felt the group              satisfaction survey and
Catholic Relief         psychosocial support             meetings were effective, as             the results of a focus
Services                reported they had benefited      reported in the Final Performance       group held to assess the
                        from group meetings, and 60      Report dated December 27,               success of the
                        percent of the individuals       2011.*                                  psychosocial program.
                        self-reported an improvement
                        in coping mechanisms.
SPRMCO11CA156           500 IDPs and refugee             A total of 543 people received          OIG reviewed sign-in
                        families had received medical    medical care and/or medicine, as        sheets for refugees
Catholic Relief         services and/or medicine.        reported in the Final Performance       receiving medication,
Services                                                 Report dated September 30, 2012.        individual case files, and
                                                                                                 medical receipts.
SPRMCO10CA195           1,150 children, adolescents,     1,260 children were trained in life     OIG reviewed selected
                        and youth trained in 10 life     skills workshops and obtained a         workshop agendas,
The Foundation for      skills workshops obtained a      58 percent improvement between          reports, participant sign-in
the Refugee             50 percent improvement           the pre-tests and the post- tests, as   sheets, and pre-test and
Education Trust         between the pre-tests and the    reported in the Final Performance       post- test results.
                        post-tests.                      Report dated October 31, 2011.
SPRMCO11CA145           80 percent of all teachers and   100 percent of the educational          OIG reviewed results of
                        students in the host             communities increased their             tests related to Ecuadorian
The Foundation for      communities participating in     positive perception of the refugee      teachers’ and students’
the Refugee             integration activities showed    population by 50 percent                perception of refugees.
Education Trust         a 50 percent improvement in      compared with the initial               The tests were
                        their positive perception of     measurement, as reported in the         administered before and
                        refugee children, adolescents,   Final Performance Report dated          after integration activities.
                        and youths.                      October 31, 2012.
SPRMCO10CA165           4,440 refugees and asylum-       A total of 5,302 refugees received      OIG reviewed selected
                        seekers received individual      individual employment                   monthly statistical reports
Hebrew Immigrant        employment consultations.        consultations, as reported in the       of employment
Aid Society                                              Final Performance Report dated          orientation services.
                                                         November 30, 2011.
SPRMCO11CA121           The Society organized and        A symposium was held in                 OIG reviewed the final
                        hosted a symposium on            September 2012 and was attended         report detailing the
Hebrew Immigrant        challenges to sexual minority    by more than 30 stakeholders, as        outcome of the
Aid Society             refugees, with at least 20       reported in the Final Performance       symposium and a listing
                        stakeholders in attendance.      Report dated November 14, 2012.         of the stakeholders in
                                                                                                 attendance.
SPRMCO11CA148           35,710 refugees and asylum- 45,350 refugees received                     OIG reviewed selected
                        seekers received                psychosocial assistance through          monthly statistical reports
Hebrew Immigrant        psychosocial assistance         individual and group therapy, as         prepared by the staff
Aid Society             through individual and group reported in the Final Performance           psychologist.
                        therapy.                        Report dated November 30, 2012.
Source: OIG analysis of a judgmental sample of one indicator per completed cooperative agreement and
corresponding award recipient documentation and performance reports.
*
  As reported in the CRS Final Evaluation Report, 94 percent of the respondents said that they felt they had benefited
from psychosocial workshops and 76 percent of the respondents reported that they had greatly improved coping
mechanisms.




                                                    7
                                               UNCLASSIFIED
                                              UNCLASSIFIED


Interim Program Evaluations

        One way in which GORs and RefCoords monitored indicator progress was through the
completion of an IPE for every cooperative agreement, as required by PRM policy after the
6-month mark in the program.12 The IPE is a monitoring tool that is completed for any funding
action that represents a continuation of an NGO activity funded in the previous year. The
RefCoord, GOR, and GO work jointly to complete the IPE, which assesses overall program
performance and provides a funding recommendation for future projects.

        According to GPD 28 and GPD 16, the GOR is responsible for evaluating progress
throughout the life cycle of the award and for submitting a final report to the GO. However, the
Department had not established a requirement for a formal progress report during a program’s
execution. The IPE is a PRM initiative for a formal report at a cooperative agreement’s mid-
point that goes beyond the Department’s requirements by assessing and documenting
performance for future funding decisions.

        Overall Performance

        The first of two main sections in the IPE is titled “Organization’s Overall Performance.”
This section is further divided into eight subsections, each of which provides a detailed
assessment of program implementation and includes specific examples such as trip reports,
financial reports, and internal organization evaluations. One noteworthy subsection of the IPE is
titled “Objectives and Indicators,” in which the GOR must complete a table of the objectives and
indicators in the cooperative agreement and then describe the cumulative progress on that
indicator to date. The cumulative progress is rated using the following scale:

                Red – If less than 75 percent of the indicators under the objective are likely to be
                 met by the end of the project period.
                Yellow – If 75 percent or more of the indicators are likely to be met by the end of
                 the project period.
                Green – If all of the indicators under the objective have been met or are likely to
                 be met by the end of the project period.

        Any objective that is rated either red or yellow must contain an explanation. This color-
coded rating system provides an easy reference point to determine whether the project is on
target.




12
  Per PRM’s General NGO Guidelines for Overseas Assistance, issued on January 19, 2012, the majority of PRM
awards to NGOs are for 12-month periods. However, based on specific program requirements, PRM may issue
funding opportunity announcements that can result in cooperative agreements for an initial 12-month period and
follow-on awards for up to two additional 12-month periods contingent upon continuing need, performance, and
availability of funding. According to PRM policy, an IPE should be completed after the 6-month mark in a project
cycle.

                                                   8
                                              UNCLASSIFIED
                                       UNCLASSIFIED


       Funding Recommendation

        The second main section of the IPE, titled “Funding Recommendation,” functions as a
summary of the recipient’s overall performance and a documented decision point regarding the
possibility of continued funding. The GOR must recommend, based on past performance,
whether PRM should continue to fund the program and/or the organization, discontinue funding,
seek adjustments in program components, or consider a no-cost extension. The Funding
Recommendation helps to ensure that the Department’s cooperative agreements are awarded to
NGOs that are performing at an acceptable level of performance.

        As a part of OIG’s review of the 10 selected cooperative agreements, OIG obtained and
assessed each award’s IPE. OIG noted an example in which one award recipient received
funding to provide refugee assistance in both Ecuador and Colombia, but the Colombia portion
of the program was struggling to meet its stated performance indicators. The Funding
Recommendation section of the IPE for this program stated that the program was lagging on one
very high priority performance indicator in Colombia and recommended that funding for the
Colombia portion of the program not be continued.

       The award recipient subsequently submitted a proposal for FY 2012 that included a
request for funding in both Ecuador and Colombia for this program. However, as a result of the
Funding Recommendation, PRM did not continue funding for the Colombia portion of this
program in FY 2012.

        Had PRM not conducted the IPE, the recipient’s lack of progress on the performance
indicator might have gone undetected. The IPE is a useful tool to track NGO performance
during the award period, ensure that all relevant information is captured in the proposal review
process, and aid in the decisionmaking process for continued funding determinations.
Additionally, the IPE allows the RefCoord and the GOR to implement changes and explore new
strategies for meeting stated program objectives and performance indicators within the award
period.

Monitoring and Evaluation Subject Matter Experts

        Within PRM’s Office of Policy and Resource Planning, there was one policy officer and
one program analyst (hereafter referred to collectively as “policy officers”) who were dedicated
to providing monitoring and evaluation expertise to all PRM program officers. These policy
officers were subject matter experts in the field of monitoring and evaluation and were
responsible for the following:

          Providing guidance to RefCoords and GORs.
          Preparing training courses for PRM personnel.
          Acting as co-chairs of PRM’s Monitoring and Evaluation Policy Team.




                                            9
                                       UNCLASSIFIED
                                       UNCLASSIFIED


Guidance to PRM Staff

         A main responsibility of the policy officers was to provide guidance to GORs,
RefCoords, and other PRM staff who were responsible for monitoring cooperative agreements.
This guidance was traditionally provided through the use of standard operating procedures,
formal training, or one-on-one discussions. For example, prior to conducting site visits to
monitor award recipients, the GOR would collaborate with a policy officer regarding the planned
trip activities. The policy officer would review the preliminary agenda and provide suggestions
for ways to enhance the GOR’s monitoring plans. Once site visits were completed, policy
officers would review the trip reports, which were required to be completed by the program
officers to document the results of the visit and to identify best practices and potential problem
areas. The policy officers were able to disseminate their findings throughout PRM so that
successes could be repeated and failures avoided.

       The policy officers also provided guidance on how to measure a recipient’s performance,
including the use of goals, objectives, and performance indicators in the agreements. For
example, during the pre-award stage of a particular cooperative agreement, the policy officers
were available to collaborate with GORs to design and negotiate program-specific indicators that
would not only support the success of the program but that would also align with PRM’s
standardized indicators.

       The Department’s GPD 42 states that the GO and the GOR are responsible for ensuring
that monitoring is conducted for each program in accordance with the appropriate regulations
and monitoring plan. The policy officers ensure that all GOs, GORs, and others charged with
monitoring cooperative agreements have the resources, knowledge, and tools to execute their
monitoring responsibilities. The additional guidance provided by the policy officers ensures that
monitoring techniques are standardized throughout PRM and that program performance is
achieved for each cooperative agreement.

       Monitoring and Evaluation Training Opportunities

        PRM held two-to-three annual monitoring and evaluation training courses for PRM staff,
which were planned and organized by the policy officers. The training courses were usually one
week each and were held onsite at the PRM headquarters in Washington, D.C. For example, the
Population, Refugee and Migration Officers Monitoring and Evaluation Workshop was annual
training that was mandatory for all new RefCoords and GORs. The FY 2012 workshop agenda
included topics such as “Monitoring International Organizations”; “Monitoring in Insecure
Environments”; and “Monitoring Trip to the Field,” in which participants simulated a site visit
and prepared a trip report. The workshop included the following objectives:

          How to apply a monitoring and evaluation framework in program design and
           implementation.
          How to apply monitoring and evaluation methods differently to NGOs and
           international organizations due to the scope of funding and program implementation.
          How to apply PRM’s monitoring and evaluation methods and tools used in needs
           assessments, gaps, and trends analyses.

                                            10
                                       UNCLASSIFIED
                                               UNCLASSIFIED


            How to formulate strong objectives and indicators by which to measure performance.
            How to monitor organizational and financial management capacity.

       Another example of training coordinated by the policy officers was PRM Monitoring and
Evaluation of Humanitarian Assistance, which was an annual course for all PRM staff who
performed monitoring as a part of their normal work duties. The course consisted of four
required sessions and 10 elective sessions that were offered over an 8-month period. Each
session lasted up to 2.5 hours and consisted of presentations, workshops, and discussions on
monitoring activities. The policy officers formulated the agenda based on the results of a survey
completed by RefCoords and GORs, as well as current trends in humanitarian assistance. For
example, the FY 2013 agenda included sessions titled “Monitoring and Evaluating Mental
Health and Psychosocial Services,” “Monitoring Livelihood Programs in Refugee Settings,” and
“Understanding [International Organization] Structures and Budgets.”

       The planning and coordination of training opportunities provided by the policy officers
helped ensure that PRM staff had the necessary skills to effectively perform the monitoring of
cooperative agreements.

         The Monitoring and Evaluation Policy Team

        Another responsibility of the policy officers was to serve as co-chairs of the PRM
Monitoring and Evaluation Policy Team. Each regional and functional office in PRM has a
policy team,13 which consists of one or more representatives from each office. Each policy team
assisted in the formulation of PRM policy on particular regions, organizations, or functions.
These teams were established to encourage PRM-wide input, cross-fertilization of ideas, and a
more consistent and integrated approach to the development of policy or funding
recommendations.

        The Monitoring and Evaluation Policy Team convened quarterly to discuss monitoring
and evaluation policies and initiatives, formulate the monitoring and evaluation strategy for
PRM, review NGO program proposals, and assist in planning site visits. The Team also
coordinated evaluations for PRM, which functioned like a “report card” for how effectively PRM
performed in a particular area. For example, an evaluation completed in August 2011 by an
independent contractor examined PRM’s refugee programming and humanitarian diplomacy in
protracted refugee settings. The evaluators reviewed the relationships between livelihoods,
education, and protection space of Colombian refugees in Ecuador (Ibarra, Tulcán, San Lorenzo,
and Quito) and Somalian refugees in Kenya. The evaluators used parallel methodologies in
Ecuador and Kenya, including focus groups, key informant interviews, and survey instruments.
Key findings of the evaluation included the following:



13
  Policy teams are an integral part of the Policy and Program Review Committee process. PRM policies and
procedures are written, approved, and implemented by the Policy and Program Review Committee, which is
a decisionmaking body that was created to provide a systematic process for establishing PRM policies and
procedures and allocating program resources in accordance with those policies, as well as to provide a record of
transparent, accountable decisionmaking.

                                                    11
                                               UNCLASSIFIED
                                       UNCLASSIFIED


          In both Kenya and Ecuador, the evaluation revealed limited access to job training and
           income generation opportunities, which would allow refugees to better meet the
           shelter and nutritional needs of their families.
          In Ecuador, refugees reported feeling stigmatized by host communities. Specifically,
           refugees stated that they lacked awareness of available services such as education and
           health care and that the lack of access to daycare was a challenge for parents seeking
           employment.

        As a result of the independent evaluation, the Monitoring and Evaluation Policy Team
incorporated the independent contractor’s findings into PRM policy initiatives in Ecuador. For
example, OIG verified that the three cooperative agreements that were ongoing during OIG’s
audit fieldwork had included performance indicators related to income generation, as well as
programs to reduce stigmatization of Colombians in Ecuador.

Conclusion

       PRM’s performance monitoring of the 10 selected cooperative agreements associated
with Colombian refugees located in Ecuador was in accordance with applicable monitoring
guidelines and requirements, and the performance indicators were achieved and were accurately
reported for those 10 agreements. PRM also exceeded Department requirements for monitoring
cooperative agreements in support of Colombian refugees located in Ecuador by implementing
PRM policy for the completion of an IPE for every cooperative agreement and by designating
two full-time policy staff positions to provide monitoring and evaluation expertise to all PRM
program officers. OIG concluded that these practices had enhanced PRM’s ability to ensure that
the cooperative agreements in support of Colombian refugees located in Ecuador were achieving
desired outcomes.

Finding B. Financial Monitoring Needed Strengthening
        Although OIG determined that PRM’s monitoring of program performance for the 10
selected cooperative agreements awarded in support of Colombian refugees in Ecuador was in
accordance with applicable guidelines, increased financial monitoring was needed to validate
that funding was properly spent by NGO recipients. Specifically, PRM did not perform financial
reviews of NGO recipients’ books and records when conducting monitoring site visits for the 10
cooperative agreements in OIG’s sample. Detailed financial reviews were not being performed
because, according to PRM officials, GOs, who were generally responsible for fiscal monitoring,
did not have the time or the resources to perform site visits to each recipient. Without onsite
financial reviews of refugee assistance funds, PRM was not in compliance with GPD 42 and did
not have reasonable assurance that program expenditures were in accordance with the terms of
the cooperative agreement.

Financial Reviews of Awards

       OIG conducted site visits to three award recipients in Quito and in Lago Agrio and
reviewed a sample of 82 financial transactions, totaling $240,399, from the cooperative


                                            12
                                       UNCLASSIFIED
                                               UNCLASSIFIED

agreements selected for review.14 Financial transactions were reviewed to determine whether the
expenses were

        Allowable, reasonable, and allocable.15
        Approved by appropriate recipient personnel.
        Supported by adequate documentation.

        Overall, OIG found that most of the expenses were allowable, approved, and supported
by documentation, but there were notable exceptions. Specifically, OIG found improper
expenses charged by two of the three NGO award recipients, including one unallowable cost and
one expense charged to the incorrect cooperative agreement, as well as two instances of internal
control deficiencies.

       The first exception was identified while reviewing Cooperative Agreement S-PRMCO-
11-CA-148, executed by HIAS. OIG selected a lodging expense, dated August 9, 2012, in the
amount of $939.60. OIG found that the lodging expense was not directly related to the
cooperative agreement and should not have been claimed as an expense. HIAS officials
explained that they did not understand the proper treatment of the expense and had charged it to
the award in error. The officials agreed to reverse the transaction and return the funds to the
Department.

        The second exception was identified during the review of Cooperative Agreement
S-PRMCO-11-CA-156, executed by CRS. OIG selected a travel expense, dated August 14,
2012, in the amount of $1,128.36 for a plane ticket from Quito to Baltimore, Maryland. OIG
determined that the ticket was for a CRS staff member who was not assigned to work on the
cooperative agreement. Per CRS officials, the expense was incorrectly charged to the agreement
by an inexperienced staff member who was no longer with the organization. The award recipient
agreed to reverse the transaction and return the funds to the Department.

        OIG also observed instances of internal control deficiencies in two of the recipients’
financial accounting procedures. While reviewing salary expenses at the HIAS office in Quito,
OIG found that a senior official was approving her own Time and Effort Certification form and
paycheck. Also, an official within RET was purchasing laptops from a senior official’s relative.
In neither instance did OIG identify any indication of impropriety; however, the lack of adequate
internal controls could potentially lead to a misappropriation of funds in the future. OIG made
informal recommendations to the two NGOs to correct these internal control deficiencies.

         Recommendation 1. OIG recommends that the Bureau of Population, Refugees and
         Migration ensure that the Hebrew Immigrant Aid Society reimburses the Department
         $939.60 for the unallowable expense charged to Cooperative Agreement S-PRMCO-11-


14
   Financial transactions were tested for eight of the 10 cooperative agreements. Transactions were not tested for
two awards: one because of where the supporting documentation was located and one because it was an ongoing
award and the timing of the expenditures did not allow for a review.
15
   Reviews for allowable, reasonable, and allocable expenses were conducted in accordance with Office of
Management and Budget Circular A-122, Cost Principles for Non-Profit Organizations, revised May 10, 2004.

                                                    13
                                               UNCLASSIFIED
                                         UNCLASSIFIED

       CA-148 and that Catholic Relief Services reimburses the Department $1,128.36 for the
       unallowable expense charged to Cooperative Agreement S-PRMCO-11-CA-156.

       Management Response: PRM concurred with the recommendation, stating that it will
       ensure that HIAS and CRS “reverse the identified transactions” and that the “final
       payments and final financial reports for these awards do not reflect Federal funding for
       these unallowable expenses.”

       OIG Reply: OIG considers this recommendation resolved, pending review and
       acceptance of documentation showing that HIAS has reimbursed the Department for
       $939.60 for the unallowable expense charged to Cooperative Agreement S-PRMCO-11-
       CA-148 and that CRS has reimbursed the Department $1,128.36 for the unallowable
       expense charged to Cooperative Agreement S-PRMCO-11-CA-156.

Monitoring Site Visits

         PRM policy states that a monitoring site visit should occur at least once per year for each
cooperative agreement. For example, PRM conducted monitoring site visits to award recipients
in Quito in May 2012 to include the three recipients that were chosen as part of OIG’s review.
The site visits were performed by the RefCoord and the GOR responsible for monitoring in
Ecuador and generally focused on performance monitoring. The site visits included meetings
with recipient staff, visits to multiple field locations, reviews of recipient progress on objectives
and performance indicators, and interviews with beneficiaries. Each monitoring site visit was
thoroughly documented in a trip report and included detailed sections for site visit activities,
results, and followup actions.

         OIG found that financial monitoring was not being performed during PRM’s monitoring
site visits for the 10 cooperative agreements in its sample. PRM officials stated that financial
monitoring was not being performed because the GOs, who were responsible for the financial
monitoring, did not regularly perform site visits. A total of five GOs within PRM were
responsible for approximately 50 cooperative agreements each. These cooperative agreements
were not geographically assigned; therefore, the logistics of performing site visits to each
location would have been time consuming and expensive. OIG did note that the GOs had
performed site visits to high-risk recipients in isolated instances.

        GPD 42 describes the various methods that the GO and the GOR should employ to
monitor the financial and programmatic aspects of cooperative agreements. Specifically, GPD
42 states that site visits substantiate sound financial management; program progress; and
compliance with laws, regulations, and policies. The GPD further states that site visits also
provide an opportunity to look at the recipient’s accounting records to ensure that adequate
documentation is being maintained to support award expenditures. Furthermore, the
Department’s Federal Assistance Policy Handbook states the following in relation to financial
monitoring:

       In addition to reviewing the SF-425, Federal Financial Report, GO/GORs can ask
       to see payroll records and receipts for purchases as part of ongoing monitoring.

                                              14
                                         UNCLASSIFIED
                                        UNCLASSIFIED

       Checking receipts or other documentation for expenditures is a good way to
       ensure that only items authorized under the award terms and conditions have been
       purchased and charged to the grant. It also provides a way to confirm that
       expenditures occurred within the authorized award period of performance.

       Within PRM, the GO is responsible for fiscal monitoring while the GOR and the
RefCoord are responsible for performance monitoring. Therefore, when site visits were
performed, only performance monitoring was addressed. Without active fiscal monitoring
through regular site visits, PRM was not in compliance with GPD 42 and did not have reasonable
assurance that program expenditures were in accordance with the terms of the cooperative
agreement.

Conclusion

        While not all instances of noncompliance would be identified by additional fiscal
monitoring, a review of recipient books and records would have helped to ensure that funds were
generally expensed in accordance with Federal and Department regulations and within the terms
of the cooperative agreement. This practice would also encourage NGO award recipients to be
more diligent with their own finances. OIG recognizes that it is not practical for a GO to
conduct annual site visits to each recipient. However, a financial review could be incorporated
into the existing structure of monitoring site visits performed by the GORs. PRM should
therefore develop specific procedures for conducting financial reviews and leverage its existing
training courses to provide guidance to those PRM staff members charged with performing site
visits.

       Recommendation 2. OIG recommends that the Bureau of Population, Refugees and
       Migration implement the guidance provided in Grants Policy Directive 42, “Monitoring
       Assistance Awards,” by requiring grants officer representatives to perform a financial
       review of award recipients’ books and records during annual site visits to monitor
       cooperative agreements. Procedures for the financial review should be developed and
       incorporated into the annual training provided to staff charged with monitoring
       cooperative agreements.

       Management Response: PRM concurred with the recommendation, stating that it will
       “enhance the financial review of its financial assistance awards to incorporate a
       requirement for the review of field financial records during monitoring visits.” PRM
       further stated that it will implement the requirement by developing a monitoring trip
       template and toolkit that specifically details financial review procedures and that it will
       include financial monitoring techniques into annual training.

       OIG Reply: OIG considers the recommendation resolved, pending review and
       acceptance of documentation showing that the requirement for GORs to perform
       financial reviews has been implemented and that procedures for the financial reviews
       have been developed and incorporated into the annual training as described.




                                             15
                                        UNCLASSIFIED
                                     UNCLASSIFIED


                               List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Population, Refugees and Migration
ensure that the Hebrew Immigrant Aid Society reimburses the Department $939.60 for the
unallowable expense charged to Cooperative Agreement S-PRMCO-11-CA-148 and that
Catholic Relief Services reimburses the Department $1,128.36 for the unallowable expense
charged to Cooperative Agreement S-PRMCO-11-CA-156.

Recommendation 2. OIG recommends that the Bureau of Population, Refugees and Migration
implement the guidance provided in Grants Policy Directive 42, “Monitoring Assistance
Awards,” by requiring grants officer representatives to perform a financial review of award
recipients’ books and records during annual site visits to monitor cooperative agreements.
Procedures for the financial review should be developed and incorporated into the annual
training provided to staff charged with monitoring cooperative agreements.




                                          16
                                     UNCLASSIFIED
                                            UNCLASSIFIED


                                                                                                Appendix A

                                      Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to determine whether the Bureau of Population,
Refugees and Migration’s (PRM) oversight of cooperative agreements in support of Colombian
refugees located in Ecuador was in accordance with applicable guidelines and whether stated
program performance indicators were achieved and accurately reported.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objective. OIG believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objective.

        To obtain background information for this audit, OIG researched and reviewed Federal
laws and regulations related to the monitoring and oversight of Federal foreign assistance
awards, such as the Migration and Refugee Assistance Act of 1962;1 Government Accountability
Office (GAO) reports related to refugee assistance; and the Department’s Congressional Budget
Justifications reflecting migration and refugee assistance requests. OIG also reviewed
Department policies and additional guidance related to grants and cooperative agreements,
including Office of Management and Budget Circular A-122,2 the Department’s Federal
Assistance Policy Handbook, and multiple Grants Policy Directives.

       OIG conducted fieldwork for this audit from November 2012 to March 2013. To gain an
understanding of PRM’s policies and procedures for overseeing grants and cooperative
agreements, OIG interviewed officials from PRM’s Office of Policy and Resource Planning;
Office of International Refugee Assistance for Europe, Central Asia, and the Americas; and
Office of the Comptroller. OIG also reviewed PRM’s internal policies, training courses, and
standard operating procedures for conducting oversight.

        OIG conducted site visits to review a sample of 10 cooperative agreements in Quito and
in Lago Agrio, Ecuador, that were awarded to three non-governmental organizations (NGO).
During the site visits, OIG interviewed program personnel to understand their roles and
responsibilities under each award, examined deliverables executed by each award recipient, and
reviewed supporting documentation such as a sample of financial transactions to determine
whether there was adequate and accurate supporting documentation for the program. OIG also
interviewed the refugee coordinator responsible for monitoring the 10 cooperative agreements in
support of Colombian refugees located in Ecuador.




1
 Pub. L. No . 87-510 (codified at 22 U.S.C. § 2601).
2
 Office of Management and Budget Circular A-122, Cost Principles for Non-Profit Organizations, revised May 10,
2004.

                                                 17
                                            UNCLASSIFIED
                                              UNCLASSIFIED


Prior Reports

        Between 2009 and 2011, OIG, GAO, and the U.S. Agency for International Development
(USAID) OIG issued seven audit and inspection reports related to assistance programs for
refugees and other vulnerable populations in the Near East and Western Hemisphere. Of those
seven reports, the two that were most applicable to OIG’s audit were issued in 2011 by OIG and
USAID. Specifically, an OIG inspection report3 stated that support for internally displaced
persons (IDP) in Colombia had increased consistently with the availability of support from host
governments, raising the question for the need and efficacy of continued U.S. emergency
assistance for displaced persons in that country. The USAID audit report4 stated that there was
limited evidence that the program had met its goals to stabilize and reintegrate IDPs into civil
society, specifically because there were no performance measures linked to IDP stabilization. In
addition, the audit determined that performance data was incorrectly reported in
USAID/Colombia Mission’s Performance Plan and Report. Both reports related to OIG’s audit
objective as to whether refugee assistance reached the intended recipients and whether program
performance indicators were achieved and were accurately reported.

Use of Computer-Processed Data

        To assess the reliability of computer-processed data, OIG interviewed officials
knowledgeable about the data, reviewed existing documentation related to the data sources, and
performed some tracing to source documents. More specifically, OIG obtained cooperative
agreement data from the three NGO recipients selected as part of its sample and traced the data
from computerized documentation to the source documents. OIG also obtained a listing of all
cooperative agreements and grants funded from FY 2010 through FY 2012 from PRM and
conducted a data reliability test and reconciliation by comparing the PRM list with information
on awards obtained via a query of USASpending.gov.5 From these efforts, OIG determined that
the data was sufficiently reliable to support the conclusions and recommendations in this report.

Work Related to Internal Controls

       OIG performed steps to assess the adequacy of internal controls related to expenditures
for cooperative agreements, as well as the mechanisms used to capture results, for a sampling of
PRM’s humanitarian assistance programs. Specifically, OIG gained an understanding of the
Department’s processes for capturing indicator results for reporting purposes and reviewed
supporting documentation for indicators identified for each of the 10 cooperative agreements in
its sample. In addition, OIG gained an understanding of the Department’s policies and
procedures related to monitoring the expenditures of Federal funds dedicated to overseas
humanitarian assistance. During OIG’s review of the 10 selected cooperative agreements, OIG



3
  Report of Inspection, Embassy Bogota, Colombia (ISP-I-11-41A, June 2011).
4
  Audit of Assistance to Internally Displaced Persons and Vulnerable Groups Financed by USAID/Colombia (1-514-
11-002-P, Jan. 2011).
5
  USASpending.gov is the official Government Web site created by the Office of Management and Budget to
provide the public with a searchable database of Federal awards. The Department provides data to the administrator
of the Web site periodically. This data is garnered from the Department’s Grants Database Management System.

                                                   18
                                              UNCLASSIFIED
                                         UNCLASSIFIED

identified improper expenses charged by two of the three NGO award recipients as well as two
instances of internal control deficiencies, as detailed in the Audit Results section of the report.

Detailed Sampling Methodology

       OIG’s sampling objective was to determine whether PRM’s monitoring of a selection of
cooperative agreements in support of Colombian refugees located in Ecuador was sufficient to
ensure that performance indicators were achieved, that funds were spent accordingly, and that all
programmatic and financial reporting could be substantiated.

Determination of Population and Selection of Overseas Sites

        After obtaining a listing of all grants and cooperative agreements funded from FY 2010
through FY 2012 from PRM and determining the reliability of this data, the audit team held
discussions with PRM and OIG management to aid in determining the sites for the OIG audit
team to visit and review. As a result of these efforts, OIG focused on NGOs receiving Federal
assistance for refugee programs executed in the Near East and Western Hemisphere.
Specifically, OIG decided to review cooperative agreements executed in Jordan in support of
Syrian refugees and cooperative agreements executed in Ecuador in support of Colombian
refugees. OIG determined that from FY 2010 through FY 2012, 21 cooperative agreements,
totaling approximately $33 million, were in Jordan and 13 cooperative agreements, totaling
approximately $24 million, were in Ecuador.

Selection and Review of Cooperative Agreements at Overseas Sites

         Of the 34 cooperative agreements in Ecuador and Jordan, totaling approximately
$57 million, OIG originally selected for review 27 cooperative agreements, totaling
approximately $52 million. The sample selection consisted of 17 cooperative agreements in
Jordan (five NGO recipients), totaling approximately $30 million, and 10 cooperative
agreements in Ecuador (three NGO recipients), totaling approximately $22 million. OIG
selected these cooperative agreements based on two primary factors: the high dollar amount of
the agreements and NGO recipients that had more than one agreement (this factor was used to
facilitate and optimize the time allotted for overseas review work). However, at the request of
PRM officials, OIG excluded the cooperative agreements in Jordan from its review because of
the overwhelming response required by PRM to address the needs of the Syrian refugees fleeing
to Jordan at the time of OIG’s fieldwork. OIG considered visiting an alternate location to review
additional cooperative agreements but concluded that the audit work performed in Ecuador was
sufficient to meet the primary objective of this audit. OIG does expect to include information on
the associated cooperative agreements and NGO recipients in Jordan in the scope of a future
audit pertaining to Syrian refugee assistance. Accordingly, this audit focused solely on the
selected 10 cooperative agreements supporting Colombian refugees in Ecuador, as shown in
Table 1.




                                              19
                                         UNCLASSIFIED
                                           UNCLASSIFIED


Table 1. Sample Selection of PRM Cooperative Agreements
       Award Number            Place of Performance           Date of Award      Award Amount
 1    SPRMCO10CA165         Ecuador, Panama, Venezuela      August 30, 2010          $ 2,499,481
 2    SPRMCO10CA195         Ecuador, Costa Rica, Panama     August 30, 2010            1,200,000
 3    SPRMCO10CA170         Ecuador                         September 09, 2010         1,000,000
 4    SPRMCO11CA121         Ecuador, Ghana, Israel, Kenya   August 12, 2011              205,424
 5    SPRMCO11CA148         Ecuador, Panama, Venezuela      August 26, 2011            3,097,250
 6    SPRMCO11CA145         Ecuador, Costa Rica, Panama     September 07, 2011         2,300,000
 7    SPRMCO11CA156         Ecuador, Colombia               September 13, 2011         1,600,000
 8    SPRMCO12CA1139        Ecuador, Panama, Venezuela      September 17, 2012         3,800,000
 9    SPRMCO12CA1140        Ecuador                         September 18, 2012         2,700,000
 10   SPRMCO12CA1135        Ecuador, Costa Rica, Panama,                               3,200,000
                                                            September 18, 2012
                            Venezuela
      Total                                                                         $21,602,155
Source: OIG generated based on data provided by PRM.

        Two of the 10 cooperative agreements selected for review provided funding for
Colombian refugees in Ecuador only, while seven provided funding in Ecuador as well as in
other neighboring countries, including Colombia, Venezuela, Costa Rica, and Panama. One
cooperative agreement funded a study of sexual minority refugees in Ecuador, Ghana, Israel, and
Kenya. OIG reviewed these agreements in their entirety and verified and validated financial
transactions and performance indicators for the work conducted in Ecuador. Specifically, the
review in Ecuador included the sampling of 82 financial transactions for eight of the 10
cooperative agreements in OIG’s sample (information on the two cooperative agreements for
which no financial transactions were reviewed is included in “Scope Limitations” in this
appendix). These 82 transactions were reviewed to determine whether there was adequate and
accurate supporting documentation for the program expenditures (for example, timesheets,
receipts, and invoices) to ensure that Department funds were spent in accordance with each
cooperative agreement. This sample was chosen judgmentally, and the main selection criteria
were the amount and type of expenses and coverage of expenses incurred from FY 2010 through
FY 2012, the scope of OIG’s audit. The review in Ecuador also included sampling one
performance indicator per cooperative agreement and examining supporting documentation (for
example, sign-in sheets, case files, and distribution sheets) to verify that the indicators were
achieved or were on track to be achieved. OIG also traced the indicators to the Final
Performance Report for the seven completed cooperative agreements to determine whether
results were accurately reported to the Department.

Scope Limitations

        OIG was able to test financial transactions for only eight of the 10 cooperative
agreements in its sample. OIG was unable to test transactions for two awards: one because of
the location of supporting documentation for the award and one because it was an ongoing award
and the timing of the expenditures did not allow for a review. However, OIG believes that the
results obtained from its testing of the 82 transactions for the eight cooperative agreements were
sufficient to provide a reasonable basis for the findings and conclusions in this report.




                                                20
                                           UNCLASSIFIED
                                   UNCLASSIFIED


                                                                                            Appendix B


                                                  United States Department of State
                                                  Washington, D.C. 20520




                                                                                   June 26,2013



UNCLASSIFIED
MEMORANDUM

TO:           OIG/AUD - Evelyn Klemstine

FROM:         PRM - Elizabeth Hopkins, Acting     DA~
SUBJECT:      Draft Report on A ut/it of Bureau of Population, Refugees anti Migration
              Oversight ofSe/ectetl Cooperative Agreements in Support of Colombian
              Refugees in Ecuador

Thank you for the opportunity to provide comments on the subject draft audit report. We
appreciate that the report highlights the important humanitarian assistance that the Department
funds through cooperative agreements with non-governmental organizations (NGOs) as well as
the exceptional performance monitoring practices that PRM demonstrates in managing this
assistance.

PRM requests the redaction of information in the report that originated from a FY20 12 Policy
and Program Review Committee (PPRC) for Colombia and an Interim Performance Evaluation
(IPE) that should not be shared with external parties or made public. The PPRC is marked SBU
and direct quotes from this document should not be included in the report or shared beyond
PRM. The IPE quote reflects sensitive internal bureau deliberations that should also not be
shared outside of PRM. PRM would greatly appreciate the OIG removing these references from
the report.

Additionally, PRM requests an edit to footnote I, on page one that defines the term " refugee".
We would like footnote I to read as follows: The term "refugee" as used in this report
encompasses the following groups of individuals: refugees and/or asylum seekers. As a result of
this edit, PRM suggests the OIG change "refugee assistance programs" to "humanitarian
assistance programs" throughout the report.

Additionally, the funding figures included in the chart on page four represent funding allocated
to the Western Hemisphere line from the annual M igration and Refugee Assistance
appropriation. They do not represent obligations. Also, PRM did execute grants and interagency
agreements from the Western Hemisphere line each year, which are also not reflected. The
followi ng table represents annual MRA obligations from the Western Hemisphere line for each
year:




                                        21
                                   UNCLASSIFIED
                                   UNCLASSIFIED




                                      UNCLASSIFIED
                                             -2-



Tabl e I: Summaryo fM Igratwn
                        '        and Refiugee Assistance
                                                   .     . t he western HCmiS
                                                         m                 . pihere *
                     FY 2010               FY 2011           FY 2012           Total
International        $32,200,695          $38, 192,266       $37,559,908       $107' 952,869
Organizations
NGOs                 $14,269,812          $15,447,250        $17,407,161       $47,124,223
Grants!Tntcragency $2,307,405             $1 ,255,040        $2,024,000        $5,586,445
Agreements
Total                $48,777,912          $54,894,556        $56,991 ,069      $160,663,53 7
*Note these figures represent obhgatwns from the Western Hemisphere lme of the MigratiOn and
Refugee Assistance account. Additional funding was obligated for the Western Hemisphere
region from the Protection Priorities line.

We have addressed the two specific audit recommendations in the attachment to this letter. PRM
remains committed to effective management, monitoring and evaluation of its refugee assistance
programs.



Attachment:

       I. Recommendations and Responses.




                                      UNCLASSIFIED




                                        22
                                   UNCLASSIFIED
                                    UNCLASSIFIED




                                         UNCLASSIFIED
                                             -3-

Response to the Report, Audit of Bureau ofPopulation, Refugees and Migration Oversight of
     Selected Cooperative Agreements in Support of Colombian Refugees in Ecuador

                               Recommendations and Responses

Recommendation 1. OIG recommends that the Bureau of Population, Refugees and Migration
ensure that the Hebrew Immigrant Aid Society reimburses the Department $939.60 for the
unallowable expense charged to Cooperative Agreement S-PRMC0-11-CA-148 and that
Catholic Relief Services reimburses the Department $1,128.36 for the unallowable expense
charged to Cooperative Agreement S-PRMC0-11-CA-156.

PRM Response: Concur. PRM will ensure that both organizations have followed through on
their commitments to the OIG to reverse the identified transactions and that the final payments
and final financial reports for these awards do not reflect Federal funding for these unallowable
expenses.

Recommendation 2. OIG recommends that the Bureau of Population, Refugees and Migration
implement the guidance provided in Grants Policy Directive 42, "Monitoring Assistance
Awards," by requiring grants officer representatives to perform a financial review of award
recipients' books and records during annual site visits to monitor cooperative agreements.
Procedures for the financial review should be developed and incorporated into the annual
training provided to staff charged with monitoring cooperative agreements.

PRM Response: Concur. PRM will enhance the financial review of its financial assistance
awards to incorporate a requirement for the review of field financial records during monitoring
visits. PRM will develop a monitoring trip template and toolkit that specifically details financial
review procedures so that that the PRM personnel can efficiently conduct financial monitoring
during field visits to PRM NGO partners. In addition, PRM will emphasize the requirement for
and the value of field financial monitoring during the financial management and grants modules
of the PRM Monitoring and Evaluation Workshop and the PRM Monitoring and Evaluation of
Humanitarian Assistance courses, as well as provide specific instruction on financial monitoring
techniques.




                                        UNCLASSIFIED




                                         23
                                    UNCLASSIFIED
                                     UNCLASSIFIED


Major Contributors to This Report

Melinda Perez, Director
Division of Contracts and Grants
Office of Audits

Gretchen Trimble, Auditor
Division of Contracts and Grants
Office of Audits

Brian Jones, Auditor
Division of Contracts and Grants
Office of Audits

Kathleen Sedney, Auditor
Division of Contracts and Grants
Office of Audits

Katherine Clay, Management Analyst
Division of Contracts and Grants
Office of Audits




                                          24
                                     UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
